   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




May 16, 2011

TO:            Yolanda J. Butler, Ph.D.
               Acting Director
               Office of Community Services
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at Central Oklahoma Community Action
               Agency, Inc. (A-06-10-00088)


The attached final report provides the results of our limited scope review at Central Oklahoma
Community Action Agency, Inc. In accordance with the American Recovery and Reinvestment
Act of 2009, the Office of Inspector General (OIG) will provide oversight of covered funds to
prevent fraud, waste, and abuse.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. We look forward to receiving
your final management decision within 6 months. Please refer to report number A-06-10-00088
in all correspondence.


Attachment
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




   RESULTS OF LIMITED SCOPE
 REVIEW AT CENTRAL OKLAHOMA
COMMUNITY ACTION AGENCY, INC.




                       Daniel R. Levinson
                        Inspector General

                           May 2011
                         A-06-10-00088
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998 (the CSBG
Act), P.L. No. 105-285, to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services, the Administration for
Children and Families (ACF), Office of Community Services, administers the CSBG program.
The CSBG program funds a State-administered network of more than 1,000 local Community
Action Agencies (CAA) that create, coordinate, and deliver programs and services to low-
income Americans. The CAAs provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009 (the Recovery Act), P.L. No.
111-5, enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program
to help States alleviate the causes and conditions of poverty in communities. States distribute
CSBG Recovery Act funds to CAAs using the existing statutory formula.

The Oklahoma Department of Commerce (the State agency) acts as the lead agency in carrying
out State activities for the CSBG program. The State agency is responsible for approving the
State’s CAA Recovery Act grant applications and monitoring the CAAs for compliance with
program regulations. ACF awarded the State agency an additional $11,965,297 in Recovery Act
funds for the State of Oklahoma’s CSBG program.

The Central Oklahoma Community Action Agency (COCAA), a private, nonprofit organization,
provides services to low-income individuals in six counties in central Oklahoma. During fiscal
year 2009, the State agency awarded COCAA $873,168 in CSBG funds and $1,312,399 in
Recovery Act grant funds. During the same period, COCAA expended total Federal grant
awards of $1,657,391.

OBJECTIVE

Our objective was to assess COCAA’s financial viability, capacity to manage and account for
Federal funds, and ability to operate the CSBG program in accordance with Federal regulations.

SUMMARY OF FINDINGS

COCAA has the ability to manage and account for Federal funds and is capable of operating a
CSBG program in accordance with Federal regulations. However, COCAA has weaknesses
related to its accounting system, cost allocation plan, cost shifting, safeguarding of Federal
assets, board of directors composition, financial management systems, and policies and
procedures.



                                                i
RECOMMENDATIONS

In determining whether COCAA is appropriately managing and accounting for Recovery Act
grant funding and whether COCAA has the ability to operate a CSBG program in accordance
with Federal regulations, ACF should consider the information presented in this report. In
addition, COCAA should work with the State agency to address the weaknesses identified.

CENTRAL OKLAHOMA COMMUNITY ACTION AGENCY COMMENTS

In written comments on our draft report, COCAA agreed with our findings and described actions
it had taken to address them. COCAA’s comments are included in their entirety as the
Appendix.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Community Services Block Grant Program ..................................................1
              Oklahoma Department of Commerce ............................................................1
              Central Oklahoma Community Action Agency.............................................1
              Requirements for Federal Grantees ...............................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          ACCOUNTING SYSTEM ........................................................................................3

          COST ALLOCATION PLAN ...................................................................................3

          COST SHIFTING ......................................................................................................4

          SAFEGUARDING OF FEDERAL ASSETS ............................................................4

          COMPOSITION OF THE BOARD OF DIRECTORS .............................................4

          FINANCIAL MANAGEMENT SYSTEMS ............................................................4

          POLICIES AND PROCEDURES .............................................................................5

          RECOMMENDATIONS ...........................................................................................5

          CENTRAL OKLAHOMA COMMUNITY ACTION AGENCY COMMENTS .....6

APPENDIX

          CENTRAL OKLAHOMA COMMUNITY ACTION AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998 (the CSBG
Act), P.L. No. 105-285, to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services, the Administration for
Children and Families (ACF), Office of Community Services, administers the CSBG program.
The CSBG program funds a State-administered network of more than 1,000 local Community
Action Agencies (CAA) that create, coordinate, and deliver programs and services to low-
income Americans. The CAAs provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009 (the Recovery Act), P.L. No.
111-5, enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program
to help States alleviate the causes and conditions of poverty in communities. States distribute
CSBG Recovery Act funds to CAAs using the existing statutory formula.

Oklahoma Department of Commerce

The Oklahoma Department of Commerce (the State agency) acts as the lead agency in carrying
out State activities for the CSBG program. The State agency is responsible for approving the
State’s CAA Recovery Act grant applications and monitoring the CAAs for compliance with
program regulations. ACF awarded the State agency an additional $11,965,297 in Recovery Act
funds for the State of Oklahoma’s CSBG program.

Central Oklahoma Community Action Agency

The Central Oklahoma Community Action Agency (COCAA), a private, nonprofit organization,
provides services to low-income individuals in six counties in central Oklahoma. During fiscal
year 2009, the State agency awarded COCAA $873,168 in CSBG funds and $1,312,399 in
Recovery Act grant funds. During the same period, COCAA expended total Federal grant
awards of $1,657,391.

Requirements for Federal Grantees

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant-related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs. In addition, grantees must establish written procurement
procedures. Grantees are also required to maintain inventory control systems and take periodic
physical inventory of grant-related equipment. In addition, pursuant to 45 CFR § 74.27, the
allowability of costs incurred by nonprofit organizations is determined in accordance with the


                                                1
provisions of Office of Management and Budget (OMB) Circular A-122, Cost Principles for
Non-Profit Organizations.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess COCAA’s financial viability, capacity to manage and account for
Federal funds, and ability to operate the CSBG program in accordance with Federal
regulations.

Scope

We conducted a limited review of COCAA’s financial viability, financial management systems,
and related policies and procedures. Therefore, we did not perform an overall assessment of
COCAA’s internal control structure. Rather, we reviewed only the internal controls that
pertained directly to our objectives. Our review period was April 1, 2006, through May 31,
2010.

We performed our fieldwork at COCAA’s administrative office in Shawnee, Oklahoma, during
June and July 2010.

Methodology

To accomplish our objective, we:

   •    confirmed that COCAA is not excluded from receiving Federal funds;

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed COCAA’s application for, intended use of, and use of Recovery Act grant
        awards;

   •    reviewed the findings related to the most recent State agency review of COCAA;

   •    reviewed COCAA’s policies and procedures related to the CSBG program;

   •    reviewed COCAA’s bylaws, the minutes from its board of directors meetings, the
        composition of its board, and its organizational chart;

   •    performed audit steps to assess the adequacy of COCAA’s current financial systems; and

   •    reviewed COCAA’s audited financial statements and supporting documentation for the
        period April 1, 2006, through March 31, 2009.




                                                2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

COCAA has the ability to manage and account for Federal funds and is capable of operating a
CSBG program in accordance with Federal regulations. However, COCAA has weaknesses
related to its accounting system, cost allocation plan, cost shifting, safeguarding of Federal
assets, board of directors composition, financial management systems, and policies and
procedures.

ACCOUNTING SYSTEM

Pursuant to 45 CFR § 74.21, grantees must maintain financial systems that provide for accurate
and complete reporting of grant-related financial data. Grantees must provide effective control
over and accountability of all funds, property, and other assets to adequately safeguard all assets.

COCAA did not promptly record financial transactions. For example, $17,880 in adjustments
were included in the fiscal year 2009 audited financial statements ending March 31, 2009, but
were not recorded in the general ledger until June 30, 2009.

The State agency’s Contractor Implementation Manual specifies that the individual performing
bank reconciliations should initial and date the reconciliation when complete. However, the
bank reconciliation for May 31, 2010, was not signed or dated by the preparer.

COCAA’s written check-signing policy states that all checks require two signatures; however,
during our review of the bank reconciliation, we observed a check with only one of the two
required signatures.

COST ALLOCATION PLAN

OMB Circular A-122, section (4)(a), states: “A cost is allocable to a particular cost objective,
such as a grant, project, service or other activity, in accordance with the relative benefits
received.”

COCAA’s cost allocation plan states that all programs with zero salaries will be charged
administrative costs at the rate of 3 percent of COCAA’s operating budget for the life of the
programs. COCAA did not follow its cost allocation plan. Specifically, COCAA did not charge
the Federal Emergency Management Agency Grant and the Community Development Block
Grant administrative costs at the rate of 3 percent of the operating budget for the month of March
2010 even though these programs had zero salaries.




                                                 3
COST SHIFTING

OMB Circular A-122, section (4)(b), states: “Any cost allocation to a particular award or other
cost objective under these principles may not be shifted to other Federal awards to overcome
funding deficiencies, or to avoid restrictions imposed by law or by the terms of the award.”

As directed by the State agency, COCAA created a general ledger account named “Community
Services Block Grant (CSBG) CoFund” to preclude charging administrative costs to the
Recovery Act CSBG program. The State said that it did so because it wanted to avoid the
appearance that regular CSBG funds were inappropriately charged to the Recovery Act CSBG
program. As a result, this caused the CSBG Recovery Act expenditures to be understated by
$46,138.

SAFEGUARDING OF FEDERAL ASSETS

Pursuant to 45 CFR § 74.22(i)(2), grantees are required to deposit and maintain advances of
Federal funds in insured accounts whenever possible. Federal Deposit Insurance Corporation
(FDIC) policy states that deposits owned by a corporation, partnership, or unincorporated
association are insured up to $250,000 at a single bank.

COCAA exceeded FDIC’s $250,000 insurance limitation in fiscal year 2008 by $90,259.

COMPOSITION OF THE BOARD OF DIRECTORS

Section 676B of the CSBG Act requires that all CSBG agencies administer the CSBG program
through a tripartite board of directors that fully participates in the development, planning,
implementation, and evaluation of the programs that serve low-income communities. The board
should be composed of one-third each of (1) elected public officials, (2) representatives of the
beneficiaries in areas served by a CSBG, and (3) members of the private sector in areas of
business, industry, labor, religion, law enforcement, education, or other major groups and
interests in the community served.

Of COCAA’s 12 board positions, 2 private sector positions were vacant.

FINANCIAL MANAGEMENT SYSTEMS

Pursuant to 45 CFR § 74.21(b)(3), grantees’ financial management systems must provide effective
control over and accountability of all funds, property, and other assets so that recipients can
adequately safeguard all such assets and assure that they are used solely for authorized purposes.

COCAA’s Purchasing Policies and Procedures Manual specifies that all purchases in excess of
$500 must be approved by the executive director. However, information technology equipment
that cost $3,065 was purchased without the approval of the executive director.

COCAA did not perform an annual physical inventory of all equipment purchased with Federal
funds as required by its Financial Accounting Policies and Procedures Manual. In addition,
COCAA failed to make timely adjustments to the depreciation schedule. For example,

                                                 4
COCAA’s accounting firm informed COCAA in 2009 of an omission of assets on its
depreciation schedule; however, COCAA failed to make that adjustment until we brought the
omission to COCAA’s attention in July 2010.

In addition, we found that COCAA did not tag property purchased with Recovery Act funds and
did not indicate the condition of the property on its inventory records.

POLICIES AND PROCEDURES

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant-related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs.

COCAA lacked written policies and procedures to address whistle blowing and maintaining the
FDIC limit with financial institutions.

Additionally, COCAA’s Financial Accounting Policies and Procedures Manual states that a
contracted accounting firm performs many of COCAA’s accounting functions, including:

   •   maintaining the general ledger,

   •   financial reporting for grants/contracts,

   •   accounts receivable and billing,

   •   financial statement preparation,

   •   bank reconciliations,

   •   ensuring compliance with governmental financial reporting requirements,

   •   assisting with the annual audit,

   •   reconciliation of subledgers, and

   •   cash management.

The accounting firm listed in the Financial Accounting Policies and Procedures Manual has not
worked for COCAA since fiscal year 2007. To comply with Federal regulations, COCAA should
update its policies and procedures manual.

RECOMMENDATIONS

In determining whether COCAA is appropriately managing and accounting for Recovery Act
grant funding, and whether COCAA has the ability to operate a CSBG program in accordance



                                                   5
with Federal regulations, ACF should consider the information presented in this report. In
addition, COCAA should work with the State agency to address the weaknesses identified.

CENTRAL OKLAHOMA COMMUNITY ACTION AGENCY COMMENTS

In written comments on our draft report, COCAA agreed with our findings and described actions
it had taken to address them. COCAA’s comments are included in their entirety as the
Appendix.




                                               6
APPENDIX
                                                                                                                          Page 1 of 4


   APPENDIX: CENTRAL OKLAHOMA COMMUNITY ACTION AGENCY 

                        COMMENTS. 




 •
OAciio;;                                       Central Oklahoma
                                               Community Action Agency
PAR T N E R 5 HIP                             Serving Cleyela nd, Lineoln, Logan, Payne,
,Helping People. Changing Lives.              PoUawiltomie and Seminole Countie s

                      Ma rch 21, 2011

Administration
 405.27S.6060

    Central           Office or Inspector General
  Ok lahoma           Office of A ud it Scrvices, Region VI
    ~M'               I'atri<:i.~ Wh<..'Cicr
 405.273.3000
                      Rcgionallnspector Genera l for Audit Serv ices
W...the rlzatlon      1100 Commerce Street, Room 632
 405275.6060
                      Dallas, T X 75242
   Rx for OK
1.800.256.5940        Re: Moni toring Rl,!;POnsc
family Suppor1
   Centers            Patricia Wheeler:
  Ck:vcl/!oo
 405 .447.0832        In response to the monitoring letter dated March 17, 2011, Cen tral Oklahoma
    Lincoln
 405.567.4591
                      Community Action Ar,cncy, inc. mak('8lhe fo llowing representations:
    logan
 405282-4332          1.      Accounting Syste m
    ",.,

 405.624.2533
                              Finding 1: 

   CUshing
 918.225.1469                 COCAA did not promptly ~ord financ ial tra n.""dion.~ .. For p.xam ple, $17,880 in 

 Ponawatomie                  adjustme"ts wcm indudi!d in th~ fiscal y~ar 2009 audited financia l stlltc ments 

 405.275.6060
   Seminole
                              ending March 31, 2009, but were not recorded in the general ledger until June 30, 

 405.382.1800                 ZOO9. 

Retired Sen ior 
             Res ponse 1: 

Ind VolunMer 

  Programs 
                  COCAA recorded the financ ia l lransac lion uron recei p l from the auditor in the 

 PoHawatomie 
                period the audit adjustment was received Oune 30, 2009). The discrepancy 

 405.275.7910                 ex ish~ bec.au.<;c the State MonitOr:<; requ ire all Expc ndi turi! repo rts to tie to th e 

Clevoland and 

   McClain 

                              General Ledger and w ill nol allow Atljubitmcnts 10 tho::;c reports alrea dy filed by 

 405.701 .2132                the receiving Al,'ency. With the March 31, 2010 audit these adjustments were 

                              unnt!Ces5ary and the p roblem WIl5 resolved. 

 Transitiona l 

   HOUSin g 





     -

  Clev&nd
 405.447.0832                 Find ing 2: 

   Mission at                 The Stale Agency's Contractor Imp lementation Man ua l specifies that the 

 405.624.3671
                              ind ividual performing bank reconcilia tion.~ should initial and dalc the 

                              K'CQncilia\ion when complete. However, the bank reconciliation for May 31, 

   Stillwater                 2mO, was not signed o r dated by the prepa rer. 

 Community
.....,1h Ca nler
4OS.743.3171                  Respo nse 2: 

                              All Bank Reconcil iation.9 are dated electronicall y by the wftware, and the 

                              p reparer ha.~ rv.so lved the i'l.~lIe of initialing all Bank Reconcil iations when 

                              p repared. 





                                   429 N. Unio n P. O. Box 486 Shawnee, OK 74802 

                                        Phone: 405.275.6060 or 1.800.256.5940 

                                                                                        Page 2 0[4




     Finding 3: 

     COCAA's written check-signing policy states that all checks require two 

     signatures; however, during our review of the bank reconciliation, we observed a 

     check with only one of the two required signatures. 


     Response 3: 

     This was an oversight by both the Accounting Staff and the Bank. Out of 

     thousands of checks the Finance Department was unable to find another check 

     with only one Signature. The bank has been notified of the error and the 

     Accounting Staff is making additional effort to avoid this issue in the fu lure. 



2.   Cost Allocation Plan

     Finding 1: 

     COCAA's cost allocation plan states that all programs with zero salaries will be 

     charged administrative costs at the rate of 3 percent of COCAA's operating 

     budget for the life of the programs. CaCAA did not follow its cost allocation 

     plan. Specifically, COCAA did not charge the Federal Emergency Management 

     Agency Grant and the Community Development Block Grant administrative 

     costs at the rate of 3 percent of the operating budget for the month of March 2010 

     even though these programs had zero salaries. 


     Response 1: 

     All Administrative Costs on the Zero salary funds are being charged for the full 

     12-months of the year to resolve this issue. 



3.   Cost Shifting

     Finding 1: 

     As directed by the State agency, COCAA created a general ledger account named 

     "Community Services Block Grant (CSBG) Co-Fund" to preclude charging 

     administrative costS to the Recovery Act CSBG program. The State said that it 

     did so because it wanted to avoid the appearance that regular CSBG funds were 

     inappropriately charged to the Recovery Act CSBG program. As a result, this 

     caused the esSG Recovery Act expenditures to be understated by $46,138. 


     Response 1: 

     As a result of the monitoring by Office of inspector General (OIG), COCAA 

     requested an amendment from the Oklahoma Department of Commerce (ODOC) 

     to allocate Administrative Expenses to the ARRA CSBG funding. The 

     amendment was granted and the finding has been resolved. 



4.   Safeguarding of Federal Assets

     Finding 1: 

     COCAA exceeded FDIC's $250,000 insurance limitation in fiscal year 2008 by 

     $90,259. 

                                                                                          Page 3 of4




     Response 1: 

     Po licies have been written and implemented to address this issue in the future. 



5.   Composition of the Board of Directors

     Finding 1: 

     Of COCAA's 12 board positions, 2 private sector positions were vacant. 


     Response 1: 

     As of this date aU Board of Director positions have been filled. 



6.   Financial Management Systems

     Finding 1: 

     COCAA's Purchasing Policies and Procedures Manual specify that all purchases 

     in excess of $500 must be approved by the executive director. However, 

     information technology equipment that cost $3,065 was purchased without the 

     approval of the executive director. 


     Response 1: 

     This particular pu_rchase was made under the verbal direction of the executive 

     director. Updated policies and procedures have been implemented to ensure 

     compliance for all future purchases. 



     Finding 2: 

     COCAA did not perform an annual physical inventory of all equipment 

     purchased with Federal funds as required by its Financial Accounting Policies 

     and Procedures Manual In addition, COCAA failed to make timely adjustments 

     to the depreciation scheduJc. For example, COCAA's accounting firm informed 

     COCAA in 2009 of an omission of assets on its depreciation schedule; however, 

     COCAA faiJed to make that adjustment until we brought the omission to 

     COCAA's attention in July 2010. 


     Response 2: 

     The depreciation scheduJe has been updated monthly as a result of this finding. 



     Finding 3: 

     In addition, we found that COCAA did not tag property purchased with 

     Recovery Act funds and did not inctica.te the condition of the property on its 

     inventory records. 


     Response 3: 

     AU COCAA inventory has been tagged documenting the grant in which it was 

     purchased, with a COIUDUl added to reflect the condition of the inventory at the 

     time of the physical count. 



7.   Policies and Procedures
                                                                                           Page 4 of4




       Finding 1: 

       COCAA lacked written poUcies and procedures to address w histle blowing and 

       maintaining the FDIC timit with financial institutions. 


       Response 1: 

       A whistle blowing po licy and a policy for maintaining bank balances within the 

       P01C limit have been written and implemen ted . 



       Finding 2: 

       COCAA's Financial Accounting Policies and Procedures Manual states that a 

       con tracted accounting firm performs many of COCAA's accounting functions, 

       including: 

           maintaining the general ledger, 

           financial reporting for grants/contracts, 

           accounts receivable and billing, 

           financial statement preparation, 

           bank reconciliations, 

           ensuring compliance with governmental fin ancial reporting requirements, 

           assisting with the annual audit, 

           reconciliation of s ubledgers, and 

           cash management. 

       The accounting firm listed in the Financial Acco u,n ting Policies and Procedures 

       Manual has not worked for COCAA since fiscal year 2007. To comply wi th 

       Federal regulations, COCAA should update its policies a nd procedures manual. 


       Response 2: 

       COCAA's Policies and Procedures manua l wac; upd ated and approved by the 

       Board of Directors onJuJy 27, 2010. 





SU~
Clarissa Sydnor
Executive Director
